1a
APPENDIX
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
No. 18-15244 D.C. No. 2:16-cv-00255-TLN-CKD
BRYAN JAMES STROTHER,

) Filed: May
28, 2019
) Molly C. Dwyer
) Clerk U.S. Court
) of Appeals Seattle
) Washington

Sgt., California Army
National Guard,
Plaintiff-Appellant,
v.
DAVID S. BALDWIN,
Adjutant General,
State of California
National Guard;
MIKE MCCORD,
Pentagon Comptroller;
DEFENSE FINANCE
AND ACCOUNTING SERVICES;
UNITED STATES DEPARTMENT
OF DEFENSE,
Defendants-Appellees.

MEMORANDUM*
Appeal from the United States District Court for
the Eastern District of California Troy L. Nunley,
District Judge, Presiding . Argued and
Submitted May 13, 2019 Seattle, Washington
Before:
HAWKINS, W. FLETCHER, and BENNETT,
Circuit Judges.

2a
This disposition is not appropriate for publication and
is not precedent except as provided by Ninth Circuit
Rule 36-3.
In 2007, a recruiter promised Sergeant Bryan Strother
a bonus and student loan repayment if he reenlisted in
the California Army National Guard (“CA ARNG”).
Strother reenlisted, received the bonus and part of the
loan repayment, and was deployed to Iraq. Years later,
the military determined that Strother was not entitled
to his reenlistment incentives and began “recouping”
them from his pay. Roughly 1,400 other CA ARNG
members were subject to similar recoupment efforts.
An additional 16,000 members were potentially subject
to such efforts. In February 2016, Strother filed a class
action complaint against the Adjutant1 General of CA
ARNG (David Baldwin) and the Pentagon Comptroller
(Michael McCord) (collectively “Defendants”), in their
official and individual capacities. The complaint sought
injunctive, declaratory, and monetary relief based on
five claims: (I) “failure to train” pursuant to 42 U.S.C.
§ 1983; (II) “breach/impairment of contracts”; (III)
“intentional misrepresentation”; (IV) “deceit or
intentional fraud”; and (V) “concealment fraud.”
After Strother filed his complaint, Congress passed
legislation that resulted in the military ceasing its
recoupment efforts and returning all previously
recouped funds to Strother and most other CA ARNG
members. Defendants moved to dismiss the action. The
district court found that none of Strother’s claims were
moot but dismissed each claim on other grounds, as
described below. The district court dismissed Strother’s
complaint with leave to amend all but the contract
claim (Claim II). Strother chose not to amend the
complaint and the district court entered final judgment

3a
for Defendants. This appeal followed. We have
jurisdiction under 28 U.S.C. § 1291 and affirm.
A. Mootness
The district court found that none of Strother’s causes
of action is moot because there are possible nominal
damages under Counts I and II and possible damages
beyond the return of the recouped money under Counts
III-V. We agree. Even nominal damages suffice to
prevent dismissal for mootness. See Jacobs v. Clark
Cty. Sch. Dist., 526 F.3d 419, 425-26 (9th Cir. 2008).
B. Claim I
“The first step in any [§ 1983] claim is to identify the
specific constitutional right allegedly infringed.”
Albright v. Oliver, 510 U.S. 266, 271 (1994) (plurality
opinion). On appeal, Strother argues that his § 1983
claim (Claim I) alleges a due process violation of CA
ARNG members’ contractual right to the bonuses
described in their reenlistment agreements. The
district court found that Claim I does not clearly allege
such a due process violation, and that even if it did,
Strother’s § 1983 claim would fail as a matter of law.
We agree. Strother has failed to identify a
constitutional right to which his § 1983 claim could
attach because, as we discuss further in relation to
Claim II, soldiers do not have a contractual right to
their reenlistment bonuses.
C. Claim II
Claim II alleges that Defendants breached their
contractual obligations to CAARNG members “by
illegally recouping monies.” The district court properly
dismissed this claim under Rule 12(b)(6).
In Bell v. United States, 366 U.S. 393 (1961), the
Supreme Court held that “common-law rules governing

4a
private contracts have no place in the area of military
pay.” Id. at 401. The Supreme Court applied this
principle to military bonuses in United States v.
Larionoff, 431 U.S. 864 (1977). Larionoff represented
a class of U.S. Navy members seeking payment of
reenlistment bonuses under the Variable ReEnlistment Bonus (“VRB”) program as it existed at the
time they reenlisted. Id. at 865. The Court held that
Larionoff and the class were entitled to the bonuses.
The Court based its holding solely on the statutes and
regulations governing the VRB program. The Court did
not hold that class members had a contractual right to
their bonuses. In fact, the Court reaffirmed that “a
soldier’s entitlement to pay is dependent upon
statutory right.” Id. at 869 (quoting Bell, 366 U.S. at
401). As Strother confirmed at oral argument, he does
not claim that his bonus was authorized by statute.
Oral Argument at 10:59, Strother v. Baldwin, No. 4
Case: 18-15244, 05/28/2019, ID Scott v. Donald,
165 U.S. 58 (1897) . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
: 11309940, DktEntry: 46-1, Page 4 of 5 (4 of 9 1815244 (9th Cir. May 13, 2019). His contract claim
(Claim II) was thus properly dismissed with prejudice
under Bell and Larionoff.
D. Claims III-V
Strother’s remaining three claims sound in fraud. To
the extent that Strother brings Claims III-V against
Defendants in their official capacities, he must identify
an applicable waiver of sovereign immunity. The
Federal Torts Claim Act (“FTCA”) is the only relevant
waiver and it does not apply because Strother has not
satisfied the FTCA’s administrative exhaustion
requirement. See McNeil v. United States, 508 U.S.
106, 113 (1993) (“The FTCA bars claimants from
bringing suit in federal court until they have

5a
exhausted their administrative remedies.”).
To the extent Strother brings Claims III-V against
Defendants in their personal capacities, he must plead
those claims with particularity under Federal Rule of
Civil Procedure 9(b). Strother conceded at oral
argument that he did not plead his claims with
particularity with regard to Defendants Baldwin and
McCord. Oral Argument at 11:54.
AFFIRMED.
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
Bryan James Strother,

(No: 2:16 -cv-00255TLN-C

(
(
v.
( ORDER
(
David S. Baldwin, et, al
(
(
Defendants. (
Plaintiff

This matter is before the Court pursuant to three
motions. The first is Defendants David S. Baldwin and
Michael McCord’s (“Defendants”) Motion to Dismiss.1
(ECF No. 13.) Plaintiff Bryan James Strother (“Plaintiff”)
opposes the Motion to Dismiss.1 (ECF No. 28.)2 The

1

The complaint indicates this action is brought against Defendants
Baldwin and McCord “both individually and in their official
capacities.” (ECF No. 1 at 1.) Defendant Baldwin is the Adjutant
General of the California Army and Air National Guard. (See ECF
No. 1; ECF No. 13-1 at 2. n.1) Defendant McCord is the Pentagon
Comptroller. (ECF No. 1; ECF No. 13-1 at 2. n.1.) In the caption of
the complaint, Defendant McCord’s position was given as

6a
second is Plaintiff’s motion for a preliminary injunction
and class certification (“Motion for Class
Certification”). (ECF No. 15.) Defendants oppose the
Motion for Class Certification. (ECF No. 16.) The third
is Defendants’ motion to strike statement of interest of
amicus curiae (“Motion to Strike”). (ECF No. 36.) Plaintiff
has not filed an opposition to the Motion to Strike. The
Court has carefully considered the arguments raised by
the parties. For the reasons set forth below, Defendants’
Motion to Dismiss is GRANTED in part and DENIED in
part. This results in the dismissal of each of the causes of
action set forth in the complaint. (ECF No. 1.) Because
this leaves the instant action without an operative
complaint, the Motion for Class Certification is DENIED
as MOOT. Likewise, the Motion to Strike is DENIED
without prejudice, subject to renewal if Plaintiff files an
amended complaint.
I. I NTRODUCTION AND B ACKGROUND
The allegations contained in the complaint are sobering.
In short, Plaintiff contends that he reenlisted in the
California Army National Guard (“CANG”) during a time

“Pentagon Comptroller [sic] Department of Defense, Defense
Finance and Accounting Service.” (ECF No. 1 at 1.) This resulted
in the docket erroneously indicating that Defense Finance and
Accounting Services and United States Department of Defense are
separate Defendants. The Clerk of the Court is ordered to update
the docket accordingly.
2

This Court struck an earlier, overlong opposition filed by Plaintiff.
(See ECF No. 26.) All references to Plaintiff’s opposition with
respect to the Motion to Dismiss are to ECF No. 28. Defendants
had already filed a reply by the time the Court issued its order
granting Defendants’ Motion to Strike. Defendants subsequently
indicated they were relying on their already-filed reply. (ECF No.
30) Consequently, all references to the reply are to ECF No. 21.

7a
of war with the understanding he would receive certain
reenlistment bonuses and incentive payments. (See ECF
No. 1 at ¶¶ 7–8, 33–34, 36–39, 48, 86.) He did receive
them and was subsequently sent to serve his country in
Iraq. (See ECF No. 1 at ¶¶ 48, 53.) Nevertheless, years
later, the military determined that he was not entitled to
these bonuses and payments. (See ECF No. 1 at ¶ 53.) At
the time of the filing of this action, the bonuses and
payments he received were being “recouped” from his
pay. (See ECF No. 1 at ¶¶ 19, 53–54.) According to
Plaintiff, many of his fellow members of CANG similarly
reenlisted with this same understanding and have
suffered the same fate. (See ECF No. 1 at ¶¶ 4, 7, 19,
33–34, 37–38, 54.) For this reason, Plaintiff filed a
complaint containing class allegations and currently
seeks to certify this as a class action. (See generally ECF
Nos. 1 & 15.)
During the pendency of this action, there have been
significant developments. While the parties differ as to
their legal consequences, the developments are not
materially in dispute. They are as follows: On August 4,
2016, the Defense Office of Hearings and Appeals issued
a decision waiving Plaintiff’s alleged obligation to repay
his $15,000 reenlistment bonus. 3(ECF No. 41 at 2.) On
August 15, 2016, the Defense Finance and Accounting
Service refunded to Plaintiff $4,885.51 — the entire
amount it had withheld from Plaintiff’s pay in connection

3

Defendants throughout their submissions refer to “debts” or
“obligations” of Plaintiff and others. This assumes the correctness
of Defendants’ legal position that Plaintiff and his fellow CANG
members were legally obligated to return the bonus and other
incentive payments they received or otherwise were in the
government’s debt. Obviously, the Court cannot proceed from this
assumption. Consequently, the Court will use the descriptor
“alleged” throughout this Order.

8a
with the recoupment at issue in this case. (ECF No. 41 at
2.) On December 23, 2016, the National Defense
Authorization Act of 2017 (“NDAA”) was signed into law.
(ECF No. 41 at 2.) The NDAA provided that “[t]he
Secretary of Defense shall conduct a review of all bonus
pays [and] student loan repayments . . . that were paid to
members of the National Guard of the State of California
during the period beginning on January 1, 2004, and
ending on December 31, 2015.” Pub. L. 114-328, § 671(c),
Dec. 23, 2016, 130 Stat. 2000, 2174. The Department of
Defense conducted a review of Plaintiff’s incentive
payments and waived the remainder of Plaintiff’s alleged
“debts.”4 (ECF No. 41 at 2.) Defendants assert that the
Department of Defense reviewed incentive payments
made to 17,485 CANG members and, after that review,
all but 393 “received favorable determinations,” similar
to those received by Plaintiff.5 (ECF No. 41 at 3.) (ECF

No. 41 at 2.) On August 15, 2016, the Defense Finance
and Accounting Service refunded to Plaintiff $4,885.51
— the entire amount it had withheld from Plaintiff’s
pay in connection with the recoupment at issue in this
case. (ECF No. 41 at 2.) On December 23, 2016, the
National Defense Authorization Act of 2017 (“NDAA”)
was signed into law. (ECF No. 41 at 2.) The NDAA
provided that “[t]he Secretary of Defense shall conduct
a review of all bonus pays [and] student loan
repayments . . . that were paid to members of the

4

Defendants submit the Department of Defense waived a total
$25,010.32. (ECF No. 41 at 2.) However, Defendants observe
Plaintiff’s submissions in this case have given the figure subject to
recoupment as $20,010.32 in some places and $25,010.32 in
another. (ECF No. 41 at 2 n.1.) Defendants contend this
discrepancy is immaterial because the waiver would cover the
higher of the two figures. This discrepancy is not addressed in
Plaintiff’s reply. In any event, the Court agrees this discrepancy
is immaterial to the resolution of the Motion to Dismiss.

9a
National Guard of the State of California during the
period beginning on January 1, 2004, and ending on
December 31, 2015.” Pub. L. 114-328, § 671(c), Dec. 23,
2016, 130 Stat. 2000, 2174. The Department of Defense
conducted a review of Plaintiff’s incentive payments
and waived the remainder of Plaintiff’s alleged
“debts.”5 (ECF No. 41 at 2.) Defendants assert that the
Department of Defense reviewed incentive payments
made to 17,485 CANG members and, after that review,
all but 393 “received favorable determinations,” similar
to those received by Plaintiff (ECF No. 41 at 3.)
The Motion to Dismiss poses a series of complex legal
questions, including with respect to the scope of this
Court’s jurisdiction in our constitutional system. These
questions are measured under different legal standards
and implicate different procedural mechanisms. For
this reason, it would be inefficient to follow the Court’s
typical practice of setting out the standard of review
immediately after this introductory section. Instead,
the Court will proceed directly to its analysis of the
Motion to Dismiss, setting out the relevant legal
standard as appropriate.
II. ANALYSIS
The complaint contains the following five causes of

5

The precise relief received by these CANG members depended on
whether their alleged “debt” had already been “established and
certified for recoupment” and whether such recoupment had
begun. (ECF No 41 at 3.) According to Defendants, where the
alleged “debt” was “established,” it was waived and any amounts
recouped were refunded. (ECF No 41 at 3.) Where the alleged
“debt” was not yet “established” a “determination” was made that
“no debt would be established.” (ECF No. 41 at 3.)

10a
action: (i) “failure to train” pursuant to 42 U.S.C. §
1983; (ii) “breach/impairment of contracts”; (iii)
“intentional misrepresentation”; (iv) “deceit or
intentional fraud”; and (v) “concealment fraud”. (ECF
No. 1.) Defendants move to dismiss these claims for
three separate reasons. (ECF Nos. 13 & 13-1.) First,
Defendants argue the instant action must be dismissed
for lack of Article III jurisdiction as developments since
the commencement of this action have rendered each
of these causes of action moot. (ECF No. 41.) Second,
Defendants move to dismiss the third, fourth, and fifth
causes of action for failure to comply with the Federal
Tort Claim Act’s (“FTCA”) administrative exhaustion
requirement. (ECF No. 13-1 at 11–12.) Third,
Defendants argue that each of the causes of action
should be dismissed under Rule 12(b)(6) of the Federal
Rules of Civil Procedure for failure to state a claim.
(ECF No. 13.)
As Defendants’ mootness arguments challenge this
Court’s constitutional authority to reach the merits of
Plaintiff’s causes of action, the Court addresses them
first. As discussed in more detail below, the Court finds
as follows: none of the causes of action in the complaint
are moot; Defendants’ arguments relating to sovereign
immunity and the FTCA require the dismissal of the
third, fourth, and fifth causes of action insofar as they
are brought against federal officials in their official
capacities; and each of the causes of action fails to state
a claim. The Court will analyze the parties’ arguments
in that order.
A. Mootness
Defendants contend that the entire “dispute has
become moot and must be dismissed” for lack of subject

11a
matter jurisdiction.6 (ECF No. 41 at 1.) In Defendants’
view, “[t]he complaint in this action seeks three types
of relief: an order preventing any further recoupment
in connection with [Plaintiff’s] reenlistment bonus and
[Student Loan Repayment Program (“SLRP”)]
payments, a refund of the amounts previously
withheld, and declaratory relief.” (ECF No. 41 at 4.)
According to Defendants, since the commencement of
this action, the Department of Defense has “stopped
recouping [Plaintiff’s] reenlistment bonus and SLRP
payments[, . . . .] refunded all of the payments
previously recouped [from Plaintiff], and waived the
[alleged] debts at issue.” (ECF No. 41 at 4–5.)
Defendants state “there is no chance that the
reenlistment bonus and SLRP payments will be
recouped in the future.” (ECF No. 41 at 4.)
Consequently, Defendants assert “[t]his is the very
definition of a moot case” as there is no meaningful
relief that Plaintiff has requested which he has not
already received. (ECF No. 41 at 4–5.)
Assuming their primary argument demonstrates
Plaintiff’s “individual claims are plainly moot,”
Defendants of f er a preemptive argument
“anticipat[ing]” — correctly — Plaintiff would argue
that “the case as a whole is not moot because it is a

6

As an initial matter, this Court authorized the parties to file
supplemental briefing on mootness on September 11, 2017. (ECF
No. 40.) While the parties have denominated this briefing
“supplemental,” in reality this briefing completely supplants their
original submissions on mootness. By that, the Court means the
parties fully restate their previous arguments alongside their new
ones. Consequently, for ease of reference, the Court will cite solely
to the supplemental briefing throughout this Order when
analyzing the parties’ mootness arguments.

12a
putative class action, and some potential relief can still
be afforded to putative class members.” (ECF No. 41 at
5–7.) In short, it is Defendants’ contention that “Ninth
Circuit precedents finding that putative class actions
are not moot [in some circumstances], even after a
named plaintiff’s claims have become moot, do not
apply here[.]” (ECF No. 41 at 6.)
The Court finds that Defendants’ primary argument
fails with respect to each of Plaintiff’s five causes of
action. Consequently, the Court need only briefly
discuss Defendants’ argument relating to the claims of
the putative class. However, the Court will first set out
the legal standard for mootness, before analyzing these
arguments.
i. Legal Standard
Mootness is properly raised in a motion to dismiss
pursuant to Rule 12(b)(1) of the Federal Rules of Civil
Procedure, as it pertains to a federal court’s subject
matter jurisdiction under Article III of the
Constitution. White v. Lee, 227 F.3d 1214, 1242 (9th
Cir. 2000). “Article III of the Constitution limits the
jurisdiction of the federal courts to ‘Cases’ or
‘Controversies.’” Pitts v. Terrible Herbst, Inc., 653 F.3d
1081, 1086 (9th Cir. 2011). The Supreme Court has
“repeatedly held that an actual [case or] controversy
must exist not only at the time the complaint is filed,
but through all stages of the litigation.” Already, LLC
v. Nike, Inc., 568 U.S. 85, 90–91 (2013) (internal
quotation marks omitted). “A case becomes moot —
and therefore no longer a ‘Case’ or ‘Controversy’ for
purposes of Article III — when the issues presented are
no longer live’ or the parties lack a legally cognizable
interest in the outcome.” Id. at 91 (some internal
quotation marks omitted).

13a
The “central question” in determining mootness is
“whether changes in the circumstances that prevailed
at the beginning of litigation have forestalled any
occasion for meaningful relief.” Gator.com Corp. v. L.L.
Bean, Inc., 398 F.3d 1125, 1129 (9th Cir. 2005) (en
banc). This basic question is asked separately for each
cause of action. Chew v. Gates, 27 F.3d 1432, 1437 (9th
Cir. 1994); see also Chen v. Allstate Ins. Co., 819 F.3d
1136, 1144 (9th Cir. 2016) (“[A]n individual claim . . .
becomes moot when a plaintiff actually receives all of
the relief he or she could receive on the claim through
further litigation.”) (emphasis removed). A cause of
action is not moot because the “primary and principal
relief sought” is no longer available. Powell v.
McCormack, 395 U.S. 486, 499 (1969) (internal
quotation marks omitted). “The question is not
whether the precise relief sought at the time the case
was filed is still available[.]” Bayer v. Neiman Marcus
Grp., Inc., 861 F.3d 853, 862 (9th Cir. 2017). Rather,
the question is “whether there can be any effective
relief.” Id. “As long as the parties have a concrete
interest, however small, in the outcome of the
litigation, the case is not moot.” Chafin v. Chafin, 568
U.S. 165, 172 (2013).
1.

ii. Whether Plaintiff’s case is moot?

At the outset, the Court observes that Defendants’
primary mootness argument is fundamentally flawed.
Simply put, it fails to engage in a cause-of-action-bycause-of-action analysis of the relief presently available
to Plaintiff in light of the changed circumstances that
Defendants contend have mooted the instant action.
(See, e.g., ECF No. 43 at 2.) However, the practical
effect of this problem is limited by deficits in Plaintiff’s
reply brief. Despite being squarely challenged to do so,

14a
Plaintiff failed to identify any form of declaratory or
injunctive relief that he could receive with respect to
his individual claims that he had not already received.
(Compare generally ECF No. 44 with ECF No. 41 at
4–5.) Accordingly, with respect to each of the causes of
action, the Court finds Plaintiff has conceded that his
individual claims for declaratory and injunctive relief
have become moot during the pendency of this action.
See Stichting Pensioenfonds ABP v. Countrywide Fin.
Corp., 802 F. Supp. 2d 1125, 1132 (C.D. Cal. 2011)
(“[I]n most circumstances, failure to respond in an
opposition brief to an argument put forward in an
opening brief constitutes waiver or abandonment in
regard to the uncontested issue.”).
While the parties’ shortcomings in briefing mootness
were unhelpful, contrary to Defendants’ suggestion, the
Court cannot proceed to Defendants’ non-mootness
arguments without resolving the mootness issues they
raised. (See, e.g., ECF No. 43 at 5.) “Mootness is, of
course, a threshold jurisdictional issue.” Sea-Land
Serv., Inc. (Pac. Div.) v. Int’l Longshoremen’s &
Warehousemen’s Union, 939 F.2d 866, 870 (9th Cir.
1991). “In our system of government, courts have no
business deciding legal disputes or expounding on law
in the absence of such a case or controversy.” Already,
LLC, 568 U.S. at 90 (internal quotation marks
omitted). Parties cannot confer Article III jurisdiction
on a federal court by consenting to have that court
resolve a moot legal controversy. See N. Alaska Envtl.
Ctr. v. Hodel, 803 F.2d 466, 469 n.3 (9th Cir. 1986)
(citing Lake Coal Co. v. Roberts & Schaefer Co., 474
U.S. 120 (1985)). Likewise, the Court is not free to
assume away a tricky question of mootness in order to
reach what it may suspect is “an ‘easy’ merits question”
on the other side of the jurisdictional hurdle. See Steel

15a
Co. v. Citizens for a Better Env’t, 523 U.S. 83, 99 (1998).
With this is mind, the Court will engage in a
systematic analysis of the relief still available to
Plaintiff as an individual (as opposed to the putative
class).
Plaintiff’s first cause of action is not moot because at a
minimum Plaintiff could receive nominal damages for
the alleged violation of his constitutional rights
brought pursuant to 42 U.S.C. § 1983. For purposes of
analyzing mootness, the Court accepts Plaintiff’s
position that his § 1983 claim actually asserts his due
process rights were violated.7(See ECF No. 28 at 21.) It
is well-settled that a plaintiff with a § 1983 claim
differs from a typical tort plaintiff in that he can
recover nominal damages. See, e.g., Carey v. Piphus,
435 U.S. 247, 266 (1978) (“[W]e believe that the denial
of procedural due process should be actionable for
nominal damages without proof of actual injury.”); see
also Draper v. Coombs, 792 F.2d 915, 922 (9th Cir.
1986) (“Even assuming that Draper did not suffer
actual damages as a result of the unlawful extradition,
his complaint stated valid section 1983 claims for
7

As Defendants correctly note, the complaint is not a “model of
clarity.” (ECF No. 13-1 at 2.) Indeed, the words “due process”
never appear in the complaint. (See generally ECF No. 1.)
However, the Court is not free to determine whether Plaintiff’s
first cause of action fails to state a claim under Rule 12(b)(6)
before resolving the mootness question. While “[i]t is axiomatic
that the complaint may not be amended by the briefs in opposition
to a motion to dismiss,” Frenzel v. AliphCom, 76 F. Supp. 3d 999,
1009 (N.D. Cal. 2014), an opposition can save a cause of action
from dismissal for mootness if it demonstrates what relief is
presently available with respect to a cause of action the nonmovant contends is not moot. See Bayer, 861 F.3d at 869. Of
course, that cause of action may very well fail to state a claim.

16a
nominal damages.”). Moreover, the Ninth Circuit has
made it repeatedly made clear that “[a] live claim for
nominal damages will prevent dismissal [of a cause of
action] for mootness.” See, e.g., Bernhardt v. Cty. of Los
Angeles, 279 F.3d 862, 872 (9th Cir. 2002).
Plaintiff’s second cause of action is not moot for much
the same reason. While never clearly stated, the
parties’ arguments assume Plaintiff’s breach of
contract claim is governed by California law. (Compare
ECF No. 1 at ¶ 76 (contending it was wrongful to
recoup his bonus and other incentive payments after
the expiration of California’s statute of limitations)
with ECF No. 43 at 4 (citing California authority
regarding the non-availability of “[e]motional distress
damages . . . under contract law”).) For the purposes of
resolving the question of mootness, the Court will
assume this as well. California law allows a “[a]
plaintiff . . . to recover nominal damages for the breach
of a contract, despite inability to show that actual
damage was inflicted upon him, since the defendant’s
failure to perform a contractual duty is, in itself, a
legal wrong that is fully distinct from the actual
damages.” Sweet v. Johnson, 169 Cal. App. 2d 630, 632
(1959) (internal citation omitted); see also Cal. Civ.
Code § 3360 (“When a breach of duty has caused no
appreciable detriment to the party affected, he may yet
recover nominal damages.”). This is sufficient for
purposes of Article III’s case or controversy
requirement. See Bernhardt, 279 F.3d at 872; see also
In re Facebook Privacy Litig., 192 F. Supp. 3d 1053,
1060–62 (N.D. Cal. 2016) (holding that Article III
standing exists where a plaintiff seeks to “recover
nominal damages for breach of contract even in the
absence of actual damages”) (quoting Sweet, 169 Cal.
App. 2d at 632).

17a
The Court will address Plaintiff’s third, fourth, and
fifth causes of action together, as the parties have done
so. Defendants’ arguments warrant only a brief
response. In their opening brief, Defendants
acknowledge that “in numerous places [Plaintiff] asks
for repayment of amounts already recouped, as well as
other damages.” (ECF No. 13-1 at 4 (emphasis added).)
In fact, Defendants provide pin-citations to the
complaint on precisely this point, including with
respect to the three causes of action at issue. (ECF No.
13-1 at 4.) However, when it came time to discuss
mootness, Defendants suggested that Plaintiff has
sought only “three types of relief” and that these did
not include damages beyond the money recouped. (ECF
No. 41 at 4.) When Plaintiff drew attention to this
discrepancy, Defendants’ two-sentence response did not
contest that under California tort law Plaintiff could
recover damages beyond the return of the recouped
money. (See ECF No. 43 at 4.) For purposes of
resolving the mootness question, the Court will accept
this as true. Instead, Defendants argue these claims
are barred by the FTCA. (ECF No. 43 at 4.) This, of
course, has nothing to do with whether the claims at
issue are moot.
For the foregoing reasons, the Court finds none of the
five causes of action are moot as to Plaintiff as he
continues to have a concrete interest in the outcome of
this litigation with respect to each of them.
iii. Whether the claims of the putative class are moot?
Defendants’ argument with respect to the putative
class is premised on the theory that Plaintiff’s
“individual claims are plainly moot.” (ECF No. 41 at 5.)
For the reasons just discussed, this is not the case.

18a
Consequently, a lengthy discussion is not required. Cf.
Campbell-Ewald Co. v. Gomez, 136 S. Ct. 663, 672
(2016) (“While a class lacks independent status until
certified, a would-be class representative with a live
claim of her own must be accorded a fair opportunity to
show that certification is warranted”) (internal citation
omitted).
The Court will make two additional points before
proceeding. First, each of the five causes of action
presents a live controversy with respect to the entire
class with respect to damages. The arguments in the
preceding section apply with equal force with respect
to nominal damages for the first two causes of action
and damages beyond return of the recouped money for
the remaining three. Second, Defendants acknowledge
hundreds of members of the putative class have not
had their alleged debts cancelled and are still subject
to recoupment. Defendants have offered no argument
that the requests for declaratory and injunctive relief
have not been mooted for the putative class.
B. Sovereign Immunity/Federal Tort Claims Act
The Court now turns to Defendants’ contention that
the third, fourth, and fifth causes of action are barred
for failure to comply with the FTCA’s administrative
exhaustion requirement to the extent they are brought
against Defendants in their official capacities as
federal officials. (ECF No. 13-1 at 11–12.) There is,
however, a preliminary question: whether — and, if so,
to what extent — the third, fourth, and fifth causes of
action are made with respect to Defendant Baldwin in

19a
his capacity as a federal official.8
i. Whether Defendant Baldwin was acting in a federal
capacity?
What may have been a straightforward question has,
unfortunately, been rendered insoluble for reasons the
Court will now explain. As the Supreme Court has
explained, “members of the State [National] Guard . .
. .[,] [i]n a sense, . . . must keep three hats in their
closets — a civilian hat, a state militia hat, and an
army hat — only one of which is worn at any particular
time.” Perpich v. Dep’t of Def., 496 U.S. 334, 348 (1990).
Defendants begin the relevant portion of their opening
brief by acknowledging the existence of Perpich, along
with the observation that Defendant Baldwin was
“appointed by the Governor of California to command
[CANG] as [t]he Adjutant General of California.” (ECF
No. 13-1 at 8.) Without explaining how this
introduction supports their position, Defendants assert
that “[b]ecause the allegations in the complaint relate
exclusively to the administration of federal funds
authorized pursuant to federal statutes governing
military recruitment by a federally-recognized reserve
component of the United States Army, [Defendant]
Baldwin at all times was acting pursuant to federal,
not State, law.” (ECF No. 13-1 at 8.) Plaintiff responds
that “Defendant Baldwin is the head of the [CANG],”
Plaintiff’s action is being brought “against the office[]
[Defendant Baldwin] hold[s],” and that Defendant
Baldwin is “[i]n every sense . . . a [s]tate [a]ctor
appointed by the Governor of California.” (ECF No. 28

8

Defendant McCord’s status as a federal (rather than a state)
official is not contested.

20a
at 18.) In their reply, Defendants assert “[t]he
allegations in the complaint . . . make clear that
[Defendant] Baldwin was at all times acting in his
federal capacity.” (ECF No. 21 at 6.)
The Court accepts for purposes of resolving this
preliminary question that if “[t]he allegations in the
complaint . . . ma[d]e clear that [Defendant] Baldwin
was at all times acting in his federal capacity” that
Defendants’ FTCA arguments would resolve the third,
fourth, and fifth causes of action with respect to
Defendant Baldwin in his official capacity. (ECF No. 21
at 6 (emphasis added).) The problem is that the
complaint does nothing of the sort. That is presumably
why Defendants do not cite to the complaint in support
of that contention. As Defendants more accurately
observe at the outset of their opening brief, the
complaint “is not a model of clarity.” (ECF No. 13-1 at
2.) Indeed, in connection with the three causes of action
at issue here, Defendants accuse Plaintiff of making no
“effort to . . . specify the role of each [Defendant] in the
[allegedly] fraudulent scheme” and characterizing the
complaint as “provid[ing] no basis whatsoever for each
[Defendant] to determine what their alleged individual
role was[.]” (ECF No. 21 at 9 (emphasis added).) The
Court is no better situated than Defendants to make the
complaint tell a coherent, comprehensible story that
clarifies Defendant Baldwin’s role in events. Simply put,
the Court cannot accept Defendants’ argument that it is
clear that Defendant Baldwin is being sued for “acting in
his federal capacity.” (ECF No. 21 at 6.)

Perhaps realizing the rosier of their two
characterizations of the complaint could not be taken
seriously, Defendants raise in a single sentence in their
reply brief that Defendant Baldwin, in his official

21a
capacity, may be shielded by the Eleventh Amendment.
(ECF No. 21 at 6.) However, the Court “need not
consider arguments raised for the first time in a reply
brief.” Zamani v. Carnes, 491 F.3d 990, 997 (9th Cir.
2007). Likewise, the Court is not “required to address
perfunctory and undeveloped arguments[.]” Williams
v. Eastside Lumberyard & Supply Co., 190 F. Supp. 2d
1104, 1114 (S.D. Ill. 2001). The Court is not inclined to
do so here. This does not change because the single
sentence offered by Defendants touches on the
Eleventh Amendment. See Wisconsin Dep’t of Corr. v.
Schacht, 524 U.S. 381, 389 (1998) (“The Eleventh
Amendment, however, does not automatically destroy
original jurisdiction. Rather, the Eleventh Amendment
grants the State a legal power to assert a sovereign
immunity defense should it choose to do so. The State
can waive the defense. Nor need a court raise the
defect on its own.”) (internal citation omitted).
“[B]ecause of the importance of state law in analyzing
Eleventh Amendment questions” and because “the
parties have not briefed the issue,” the Court declines
to raise the issue sua sponte. Patsy v. Bd. of Regents of
State of Fla., 457 U.S. 496, 515 n.19 (1982).
ii. Whether the third, fourth, and fifth causes of action
are barred against federal officials in their official
capacity?
The Court now turns to the substance of Defendants’
primary FTCA argument.9 Again, what should have
9

Defendants, again in a single sentence, advert to what they likely
intended to be an alternative argument. Bartell v. JPMorgan
Chase Bank, NA, 607 F. App’x 731, 732 (9th Cir. 2015)
(“Conclusory statements, tautologies and a couple of citations don’t
an argument make.”). If a legal issue is not worth analyzing in a

22a
been a straightforward point is complicated by the
quality of the briefing — this time by Plaintiff’s
opposition. Consequently, a brief discussion of the
concept of the sovereign immunity of the United States
is necessary before summarizing Defendants’
straightforward argument and explaining why the
opposition is non-responsive.
It is well-settled that “the United States, as sovereign,
is immune from suit save as it consents to be sued, and
the terms of its consent to be sued in any court define
that court’s jurisdiction to entertain the suit.” United
States v. Mitchell, 445 U.S. 535, 538 (1980) (internal
alterations omitted). “The FTCA, enacted in 1946, was
designed primarily to remove the sovereign immunity
of the United States from suits in tort.” Levin v. United
States, 568 U.S. 503, 506 (2013) (internal quotation
marks omitted). The FTCA “gives federal district
courts exclusive jurisdiction over claims against the
United States for ‘injury or loss of property, or personal
injury or death caused by the negligent or wrongful act
or omission’ of federal employees acting within the
scope of their employment.” Id. (quoting 28 U.S.C. §
1346(b)(1)). “Substantively, the FTCA makes the
United States liable ‘to the same extent as a private
individual under like circumstances,’ § 2674, under the
law of the place where the tort occurred, § 1346(b)(1),
subject to enumerated exceptions to the immunity
waiver, §§ 2680(a)–(n).” Id. at 506–07. “Of the FTCA’s
[enumerated] exceptions, none bars suits by service
members against the federal government.” Johnson v.
brief, there is no need to “issue spot” it for the Court. Certainly,
the Court does not have the time to do the parties research for
them.

23a
United States, 704 F.2d 1431, 1434 (9th Cir. 1983).
However, one of the enumerated exceptions “withheld
consent to be sued for ‘[a]ny claim arising out of the
combatant activities of the military or naval forces, or
the Coast Guard, during time of war,’” Costo v. United
States, 248 F.3d 863, 866 (9th Cir. 2001) (quoting §
2680(j)). “[T]his exception was broadened significantly
by the Supreme Court, which held in Feres v. United
States[, 340 U.S. 135, 146 (1950),] that the
Government is not liable under the [FTCA] for injuries
to servicemen where the injuries arise out of or are in
the course of activity incident to service.” Id. (internal
quotation marks omitted). This judicially created
exception is known as the “Feres doctrine.” In short, if
a claim that would otherwise come within the text of
the FTCA’s waiver of sovereign immunity but also falls
within the scope of the Feres doctrine or one of the
enumerated exceptions, “the court is without
jurisdiction to hear the case.” Monaco v. United States,
661 F.2d 129, 131 (9th Cir. 1981) (internal citation and
quotation marks omitted). was broadened significantly
by the Supreme Court, which held in Feres v. United
States[, 340 U.S. 135, 146 (1950),] that the
Government is not liable under the [FTCA] for injuries
to servicemen where the injuries arise out of or are in
the course of activity incident to service.” Id. (internal
quotation marks omitted). This judicially created
exception is known as the “Feres doctrine.” In short, if
a claim that would otherwise come within the text of
the FTCA’s waiver of sovereign immunity but also falls
within the scope of the Feres doctrine or one of the
enumerated exceptions, “the court is without
jurisdiction to hear the case.” Monaco v. United States,
661 F.2d 129, 131 (9th Cir. 1981) (internal citation and
quotation marks omitted).

24a
Defendants’ argument can be briefly summarized as
follows: Claims against federal officials in their official
capacities are suits against the United States that are
barred by sovereign immunity unless the United States
has waived its immunity. (See ECF No. 13-1 at 11–12.)
Defendants contend the only relevant waiver arguably
applicable here is the FTCA and that the FTCA has an
administrative exhaustion requirement. (ECF No. 13-1
at 11.) Citing Ninth Circuit authority, Defendants
argue Plaintiff is obligated to allege compliance with
that requirement in order avoid dismissal of those
claims. (ECF No. 13-1 at 11–12.) Defendants argue
Plaintiff’s third, fourth, and fifth causes of action must
be dismissed for failing to “allege . . . he submitted an
administrative claim for the alleged frauds[.]” (ECF
No. 13-1 at 11–12.)
The Court finds that Plaintiff concedes this point by
failing to address its substance in his opposition. 10 See
10

Plaintiff acknowledges the FTCA with a pair of block quotations
to § 1346(b)(1) and § 2680. (ECF No. 28 at 26.) This is followed by
an acknowledgement of the Feres doctrine. (ECF No. 28 at 27 &
n.13.) Plaintiff then block quotes the Ninth Circuit’s opinion from
Jackson v. Tate, 648 F.3d 719 (9th Cir. 2011). Without bothering
to explain why it follows from his series of citations, Plaintiff
states “[t]he FTCA is not applicable to this matter at all.” (ECF
No. 28 at 27.) It seems most likely that this was meant to say “the
Feres doctrine does not apply to this matter at all.” That
statement would have the benefit of advancing his cause to some
degree. It would not, however, in anyway address Defendants’
exhaustion requirement argument. If, on the other hand, Plaintiff
meant to be taken literally, he would then be outside of the only
waiver of sovereign immunity identified as arguably applicable
without coming forward with another source of waiver. Either
way, Plaintiff’s response is wholly inadequate.
Additionally, for the sake of completeness, the Court notes that

25a
Stichting Pensioenfonds ABP, 802 F. Supp. 2d at 1132.
That is, these claims are dismissed with respect to
Defendant McCord in his official capacity and
Defendant Baldwin in his official capacity insofar as he
is being sued in his capacity as a federal official.
However, this dismissal is with leave to amend as the
Court cannot conclude that Plaintiff is unable to plead
exhaustion if given the opportunity. Because these
claims are not barred with respect to either of
Defendants in their individual capacities (or Defendant
Baldwin to the extent he is sued in his official capacity
as a non-federal official), this leave is granted subject
to the Court’s analysis of these claims below with
respect to Defendants’ motion pursuant to Rule
12(b)(6).
C. Rule 12(b)(6)
Having concluded that none of Plaintiff’s causes of
actions are moot and that Defendants’ sovereign
immunity arguments require dismissal of the third,
fourth, and fifth causes of action as they apply to
Defendants in the official capacities as federal officials,
the Court must now examine Defendants’ Rule 12(b)(6)
arguments. For the reasons set forth below, the Court
concludes that each of the causes of action fails to state
a claim for which relief can be granted. The Court will
analyze the causes of action in order, again analyzing
the state law causes of action together. Before doing so
the Court will briefly set out the relevant legal
standard.

Plaintiff seems to be requesting the Feres doctrine “be revised if
not overruled.” (ECF No. 28 at 27 n.13.) If this indeed a request of
this Court (rather than a musing), obviously, it must be denied.
Suffice it to say that the Supreme Court sits in review of this
Court and not the other way around.

26a
i. Legal Standard
A motion to dismiss for failure to state a claim upon
which relief can be granted under Rule 12(b)(6) of the
Federal Rules of Civil Procedure tests the legal
sufficiency of a complaint. Navarro v. Block, 250 F.3d
729, 732 (9th Cir. 2001). Rule 8(a) of the Federal Rules
of Civil Procedure requires that a pleading contain “a
short and plain statement of the claim showing that
the pleader is entitled to relief.” See Ashcroft v. Iqbal,
556 U.S. 662, 678–79 (2009). Under notice pleading in
federal court, the complaint must “give the defendant
fair notice of what the claim . . . is and the grounds
upon which it rests.” Bell Atlantic v. Twombly, 550
U.S. 544, 555 (2007) (internal quotation marks
omitted). “This simplified notice pleading standard
relies on liberal discovery rules and summary
judgment motions to define disputed facts and issues
and to dispose of unmeritorious claims.” Swierkiewicz
v. Sorema N.A., 534 U.S. 506, 512 (2002).
On a motion to dismiss, the factual allegations of the
complaint must be accepted as true. Cruz v. Beto, 405
U.S. 319, 322 (1972). A court is bound to give plaintiff the
benefit of every reasonable inference to be drawn from
the “well-pleaded” allegations of the complaint. Retail
Clerks Int’l Ass’n v. Schermerhorn, 373 U.S. 746, 753 n.6
(1963). A plaintiff need not allege “‘specific facts’ beyond

those necessary to state his claim and the grounds
showing entitlement to relief.” Twombly, 550 U.S. at
570. “A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.” Iqbal, 556 U.S. at 678 (citing
Twombly, 550 U.S. at 556).
Nevertheless, a court “need not assume the truth of

27a
legal conclusions cast in the form of factual
allegations.” United States ex rel. Chunie v. Ringrose,
788 F.2d 638, 643 n.2 (9th Cir. 1986). While Rule 8(a)
does not require detailed factual allegations, “it
demands more than an unadorned, the defendantunlawfully-harmed-me accusation.” Iqbal, 556 U.S. at
678. A pleading is insufficient if it offers mere “labels
and conclusions” or “a formulaic recitation of the
elements of a cause of action.” Twombly, 550 U.S. at
555; see also Iqbal, 556 U.S. at 678 (“Threadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements, do not suffice.”).
Moreover, it is inappropriate to assume that the
plaintiff “can prove facts that it has not alleged or that
the defendants have violated the . . . laws in ways that
have not been alleged[.]” Associated Gen. Contractors
of Cal., Inc. v. Cal. State Council of Carpenters, 459
U.S. 519, 526 (1983).
If a complaint fails to state a plausible claim, “‘[a]
district court should grant leave to amend even if no
request to amend the pleading was made, unless it
determines that the pleading could not possibly be
cured by the allegation of other facts.’” Lopez v. Smith,
203 F.3d 1122, 1130 (9th Cir. 2000) (en banc) (quoting
Doe v. United States, 58 F.3d 484, 497 (9th Cir. 1995));
see also Gardner v. Marino, 563 F.3d 981, 990 (9th Cir.
2009) (finding no abuse of discretion in denying leave
to amend when amendment would be futile). Although
a district court should freely give leave to amend when
justice so requires under Rule 15(a)(2) of the Federal
Rules of Civil Procedure, “the court’s discretion to deny
such leave is ‘particularly broad’ where the plaintiff
has previously amended its complaint[.]” Ecological
Rights Found. v. Pac. Gas & Elec. Co., 713 F.3d 502,
520 (9th Cir. 2013) (quoting Miller v. Yokohama Tire

28a
Corp., 358 F.3d 616, 622 (9th Cir. 2004)).
ii. First Cause of Action: “42 U.S.C. [§] 1983 Failure to
Train”
Plaintiff’s conceptualization of his first cause of action
is a bit of a moving target. This is immediately obvious
when paragraph 20 of the complaint is compared with
Plaintiff’s opposition to the Motion to Dismiss as a
whole. Paragraph 20 provides that “[t]he basic thrust
of Plaintiffs [sic] Complaint is 42 U.S.C. [§] 1983
failure to train.” (ECF No. 1 at ¶ 20.) Surprisingly, the
phrase “failure to train” appears nowhere in the twenty
pages of Plaintiff’s opposition. (See generally ECF No.
28.) Only after a close read of the opposition does one
learn that the first cause of action seemingly was
intended to allege a violation of the Due Process Clause
of the Fourteenth Amendment. Conspicuous by its
absence from the complaint is the phrase “due process.”
(See generally ECF No. 1.) Not surprisingly,
Defendants were able to assemble a series of
arguments as to why Plaintiff’s first cause of action
should be dismissed. Equally unsurprising, the Court
need not address some of these arguments in detail (if
at all) as they were directed toward a theory of the case
that Plaintiff has seemingly abandoned altogether.
Instead, the Court will briefly explain why the first
cause of action plainly fails. The Supreme Court has
“said many times, § 1983 is not itself a source of
substantive rights, but merely provides a method for
vindicating federal rights elsewhere conferred.”
Graham v. Connor, 490 U.S. 386, 393–94 (1989)
(internal quotation marks omitted). Therefore, “one
cannot go into court and claim a ‘violation of § 1983’—
for § 1983 by itself does not protect anyone against

29a
anything.” Chapman v. Houston Welfare Rights Org.,
441 U.S. 600, 617 (1979). Put another way, the “first
step in any [§ 1983] claim is to identify the specific
constitutional right allegedly infringed.” Albright v.
Oliver, 510 U.S. 266, 271 (1994) (plurality opinion). As
Plaintiff has failed to take this basic step, the first
cause of action must be dismissed for failure to state a
claim. Obviously, this deficiency can be cured, so the
Court will grant Plaintiff leave to amend. However, the
Court will also briefly address a few additional points
raised by the briefing to conserve judicial resources
should Plaintiff attempt to amend his complaint.
First, it is apparent that if given the opportunity to
amend Plaintiff would do so in a way that also fails as
a matter of law. Plaintiff’s position is that he and his
fellow CANG members have been deprived of a
“property interest” without due process in violation of
the Fourteenth Amendment. (See ECF No. 28 at 21,
27.) In Plaintiff’s view, the “property interest” in
question is a contractual right to receive “bonus
monies” per the terms of their respective enlistment
agreements. (See, e.g., ECF No. 28 at 21.) However, as
Defendants correctly observe, it is settled that this is
not the law. “A soldier’s entitlement to pay is
dependent upon statutory right.” Bell v. United States,
366 U.S. 393, 401 (1961). Simply put, “common-law
rules governing private contracts have no place in the
area of military pay.” Id. “This is true even though
recruiter and recruit may each sign an enlistment
contract agreeing to its contents; the recruit’s
entitlement to basic pay is simply not governed by this
contract, but by statute.” Schism v. United States, 316
F.3d 1259, 1271 (Fed. Cir. 2002) (en banc). The
situation is no different when a soldier’s entitlement to
an enlistment bonus is at issue. United States v.

30a
Larionoff, 431 U.S. 864, 869 (1977).
This does not necessarily render amendment of the
first cause of action altogether futile. When it comes to
the entitlement to bonuses, “the rights of the affected
service members must be determined by reference to
the statutes and regulations” governing the bonus
program at issue. Id. Plaintiff’s complaint seems to
take the position that (i) he was eligible for his bonuses
and incentive payments under applicable law in place
at the time of his reenlistment (independent of the
terms of his enlistment agreement), (ii) he maintained
that eligibility throughout the time he performed his
service, (iii) CANG and the Department of Defense
“falsely contend[ed]” he was ineligible under applicable
law, including 37 U.S.C. § 331, and (iv) the military
began recouping his bonuses, despite the falsity of
their contentions. (See ECF No. 1 at ¶¶ 39–55.)
Defendants make no effort to explain why Plaintiff
would be foreclosed from bringing a constitutional
claim in those circumstances. As the Ninth Circuit,
sitting en banc, stated nearly forty years ago, “[a]s to
vested rights, the distinction between earned military
pay and that to be earned in the future has long been
recognized.” Costello v. United States, 587 F.2d 424,
425 (9th Cir. 1978) (en banc). It did so citing Larionoff.
Id. In Larionoff, the Supreme Court observed that “[n]o
one disputes that Congress may prospectively reduce
the pay of members of the Armed Forces, even if that
reduction deprived members of benefits they had
expected to be able to earn.” Larionoff, 431 U.S. at 879.
However, it would raise “serious constitutional
questions” for “Congress to deprive a service member
of pay due for services already performed, but still
owing.” Id. The Court declines to wade further into this
thicket due to the failure of the parties to analyze this

31a
topic, except to conclude that the Court is not
persuaded granting leave to amend would be a futile
enterprise.
With that being said, a second topic warrants
brief discussion. Defendants correctly observe that “by
its very terms, § 1983 precludes liability in federal
government actors.” Morse v. N. Coast Opportunities,
Inc., 118 F.3d 1338, 1343 (9th Cir. 1997) (noting “the
fact that similar standards are used in analyzing the
prerequisites of § 1983 and Bivens causes of action does
not mean that the claims are interchangeable”). Thus,
if Plaintiff intends to bring a federal constitutional
claim against a federal government actor, Plaintiff
must choose a proper vehicle. However, since CANG
members are federal government actors at times and
state government actors at others, Plaintiff may plead
in the alternative, as necessary.
Lastly, in their opening brief, Defendants state the
“gravamen of the first cause of action appears to be
that the defendants failed to properly train the
military personnel who were responsible for
administering the reenlistment incentive programs.”
(ECF No. 13-1 at 6.) Citing Feres, Defendants argue
that the Court “lacks jurisdiction over any claim
seeking to dictate how federal military units must be
trained.” (ECF No. 13-1 at 6.) As previously noted,
Plaintiff makes no mention of “failure to train” in his
opposition, let alone attempting to address this
argument. Consequently, the Court deems Plaintiff to
have conceded this argument. See Stichting
Pensioenfonds ABP, 802 F. Supp. 2d at 1132.
iii. Second Cause of Action: “Breach/Impairment of
Contracts”

32a
As Defendants correctly observe, Plaintiff’s second
cause of action proceeds with the understanding that
he and his fellow CANG members have a contractual
right to their enlistment bonuses and incentive
payments. (ECF No. 13-1 at 5–6.) The Court has
already explained why this argument is foreclosed by
binding precedent. Therefore, the second cause of
action must be dismissed without leave to amend, as
an amendment would clearly be futile.
iv. Third, Fourth, and Fifth Causes of Action
The Court will analyze Defendants’ arguments with
respect to the third, fourth, and fifth causes of action
together, as the parties have done so. Defendants
contend — and Plaintiff does not dispute — each of
these causes of action are a species of fraud within the
meaning of Rule 9(b) and, therefore, are subject to its
heightened pleading standard. (Compare ECF No. 13-1
at 12 with ECF No. 28 at 28.) Defendants argue that
Plaintiff fails not only to meet that standard but falls
short of the “more relaxed notice pleading standard
under Rule 8.” (ECF No. 13-1 at 12–13.) Plaintiff’s
opposition “admits each claim is short laying out the .
. . elements for each claim, but the first paragraph of
every count in Plaintiff’s complaint states . . . [that it]
incorporates by reference all preceding and following
paragraphs.” (ECF No. 28 at 28 (emphasis removed).)
Plaintiff observes that the complaint contains “103
total numbered paragraphs” and collectively these
satisfy Rules 8 and 9. (ECF No. 28 at 28.) Plaintiff
states this is “conclusively” demonstrated by
Defendants ability to “identity [sic] the nature of all
claims, the parties involved and the facts[.]” (ECF No.
28 at 28.)

33a
The Court will first address Defendants’ Rule 9
argument. In relevant part, Rule 9(b) provides “[i]n
alleging fraud or mistake, a party must state with
particularity the circumstances constituting fraud or
mistake.” Fed. R. Civ. P. 9(b). “Rule 9(b) demands that
the circumstances constituting the alleged fraud be
specific enough to give defendants notice of the
particular misconduct . . . so that they can defend
against the charge and not just deny that they have
done anything wrong.” Sanford v. MemberWorks, Inc.,
625 F.3d 550, 558 (9th Cir. 2010). “To satisfy Rule 9(b),
a pleading must identify the who, what, when, where,
and how of the misconduct charged, as well as what is
false or misleading about [the purportedly fraudulent]
statement, and why it is false.” Cafasso v. Gen.
Dynamics C4 Sys., Inc., 637 F.3d 1047, 1055 (9th Cir.
2011) (internal quotation marks omitted).
With this in mind, it is clear that none of these three
causes of action meet the Rule 9(b) standard. As an
initial matter, it impossible for a person reviewing the
complaint to determine which Defendants each cause
of action is brought against. This is easily illustrated
by examining three factual allegations from the
complaint. With respect to the third cause of action,
paragraph 86 of the complaint provides as follows:
“Defendant made intentional misrepresentations of
material fact to Plaintiff, Defendant represented to
Plaintiff the [sic] he was eligible for reenlistment
bonuses.” (ECF No. 1 at ¶ 86.) With respect to the
fourth cause of action, paragraph 93 provides:
“Defendant’s [sic] intentionally took false actions, made
false statements, misrepresentations, false
representations, engaged in concealment, and/or non-

34a
disclosure.” 11 (ECF No. 1 at ¶ 93.) With respect to the
fifth cause of action, paragraph 99 provides:
“Defendant concealed or suppressed a material fact[.]”
(ECF No. 1 at ¶ 99.) The use of the singular
“Defendant” without giving his name or any
information that would enable a person reviewing the
complaint to discern which Defendant each cause of
action is being brought against falls short of Rule 9(b)’s
particularity standard.12
So there is no confusion, the problem is not Plaintiff’s
attempt to incorporate by reference. There are no
factual allegations anywhere in the complaint that
describe Defendant McCord doing anything of any sort
— literally none. He is mentioned in the first
numbered paragraph under the heading “Jurisdiction
and Venue,” never appears again in the 102 numbered
paragraphs that follow, and inexplicably reappears

11

The use of “Defendant’s” is obviously a typo. In context, it is
apparent that “Defendant” was intended rather than
“Defendants.” In any event, for the reasons discussed in this
section of the Order, the Rule 9(b) deficiencies go much deeper
than this and the standard would not be met even if “Defendants”
were intended in this one instance.
12

For completeness’s sake, the Court notes that footnote 23 of the
complaint identifies one instance, under the heading “Request for
Relief,” where “Defendant as used here applies to both
Defendants.” (ECF No. 1 at 18 n.23.) There is no indication this is
meant as a general statement applicable to the complaint beyond
the “Request for Relief.” However, even if it were, it would not
change things. “Rule 9(b) does not allow a complaint to . . . lump
multiple defendants together but require[s] plaintiffs to
differentiate their allegations when suing more than one
defendant.” Destfino v. Reiswig, 630 F.3d 952, 958 (9th Cir. 2011)
(internal quotation marks omitted). “‘[E]veryone did everything’
allegations” are properly dismissed. Id.

35a
under “Request for Relief.” (See ECF No. 1 at ¶ 1.) The
treatment of Defendant Baldwin is similar, except that
he appears in a single numbered paragraph. That
paragraph recounts remarks allegedly made by
Defendant Baldwin to the effect that CANG faced
“monumental” problems, had “lost its way, ethically
and morally,” and was in need of a change of culture.
(ECF No. 1 at ¶ 69.) The reality is that the complaint
— in 103 paragraphs — manages to say nothing
meaningful about either Defendant, let alone the “the
who, what, when, where, and how of the misconduct
charged, as well as what is false or misleading about
[the purportedly fraudulent] statement, and why it is
false” required by Rule 9(b). Cafasso, 637 F.3d at 1055.
As each of the causes of action fails under Rule 9(b),
the Court need not discuss Defendants’ Rule 8(a)
argument in detail. If a reader can walk away having
read a complaint without having the slightest clue
whether a cause of action is brought against him at all,
he surely is not on the “fair notice” required by Rule
8(a)(2). Twombly, 550 U.S. at 555.
One more item requires mention, as Plaintiff will be
given leave to amend with respect to these three causes
of action. There are three paragraphs that may have
been an attempt to give the “who, what, when, where,
and how” required by Rule 9(b) with respect to
someone. Cafasso, 637 F.3d at 1055. They provide as
follows:
In March 2006 Plaintiff Sgt. Byran [sic]
James Strother and other [CANG]
members were by Order of the Adjunct
[sic] General ordered to go to a retention
seminar. At the above mentioned
retention seminar [CANG] members were

36a
put into an assembly line were [sic] they
signed contracts to stay in [CANG].
Acting “Under Color of Law” [CANG]
members were given advice and counsel
by superiors to extend their time in the
guard. [CANG] members then signed the
contracts acting in good-faith in reliance
from [CANG] superiors in attendance.
(ECF No. 1 at ¶¶ 36–38.) Assuming that the superiors
in question are Defendants (or someone else whom
these causes of action could be brought against), and
further assuming that it satisfies the “who, . . . when,
where, and how” of the Rule 9(b) requirement, Rule
9(b) would still not be satisfied. A person reviewing the
complaint can only speculate what was said when
CANG members allegedly received “advice and counsel
. . . to extend their time” in the military. (ECF No. 1 at
¶ 38.) A person reviewing the complaint is left with no
idea about what “is false or misleading about [any]
purportedly fraudulent statement[s], and why [they
are] false,” as Rule 9(b) requires. Cafasso, 637 F.3d at
1055 (original alterations omitted).
III. CONCLUSION
In summary, for the reasons set forth above, (i) none of
the causes of action in the complaint are moot, (ii)
Defendants’ arguments relating to sovereign immunity
and the FTCA require the dismissal of the third,
fourth, and fifth causes of action insofar as they are
brought against federal officials in their official
capacities, (iii) each of the causes of action must be
dismissed for failure to state a claim, (iv) the second
cause of action is dismissed with prejudice, and (v) the
first, third, fourth, and fifth causes of action are
dismissed with leave to amend. Accordingly, IT IS

37a
HEREBY ORDERED as follows:
1.

The Motion to Dismiss is GRANTED in part and
DENIED in part, as set forth above;
2.
The complaint (ECF No. 1) is dismissed, as set
forth above;
3.
Plaintiff may file an amended complaint in
conformity with this Order within 30 days of the
date this Order is filed;
4.
The Motion for Class Certification (ECF No. 15)
is DENIED as MOOT; and
5.
The Motion to Strike is DENIED without
prejudice, subject to renewal if Plaintiff files an
amended complaint.
IT IS SO ORDERED.
Dated: December 4, 2017
Troy L. Nunley
United States District Judge
40 MINUTE ORDER
issued by Courtroom Deputy M. Krueger for District
Judge Troy L. Nunley on September 11, 2017: The
Court does not require additional briefing on
Defendants' motion to dismiss as it relates to
Defendants arguments pursuant to Rule 12(b)(6) of the
Federal Rules of Civil Procedure. Additionally, the
Court does not require additional briefing on Plaintiffs'
motion for preliminary injunction (ECF No. 15 .)
However, the Court understands there may be factual
developments relating to the reimbursement of
members of the putative class. If that is the case, the
Court will consider a supplemental brief from each side
in connection with Defendants' motion to dismiss as it
relates to Defendants' mootness arguments pursuant
to Rule 12(b)(1) of the Federal Rules of Civil Procedure.
Such supplemental briefing shall not exceed ten (10)

38a
pages. It shall be filed no later Monday, September 18,
2017 at 5:00 PM. Each side may file a response not to
exceed five (5) pages no later than Friday, September
22, 2017 at 5:00 PM. (TEXT ONLY ENTRY) (Krueger,
M) (Entered: 09/11/2017)
45 ORDER
signed by District Judge Troy L. Nunley on 12/4/2017
GRANTING in PART and DENYING in PART 13
Motion to Dismiss; The 1 complaint is DISMISSED, as
set forth above; Plaintiff may file an amended
complaint in conformity with this Order within 30 days
of the date this Order is filed; DENYING 15 Motion for
Preliminary Injunction; DENYING 36 Motion to Strike
without prejudice, subject to renewal if Plaintiff files
an amended complaint. (Washington, S) (Entered:
12/05/2017)
47 NOTICE of APPEAL
by Bryan James Strother as to 45 Order,, Order on
Motion to Strike,, Order on Motion to Dismiss,, Order
on Motion for Preliminary Injunction,. (Filing fee $
505, receipt number 0972!7483470) (Willman, Daniel)
(Entered: 01/31/2018)
48 JUDGMENT
dated *1/30/2018* in favor of Defendants against
Plaintiff pursuant to order signed by District Judge
Troy L. Nunley on 1/30/2018. (Donati, J) (Entered:
01/31/2018) 01/31/2018 47 NOTICE of APPEAL by
Bryan James Strother as to 45 Order,, Order on Motion
to Strike,, Order on Motion to Dismiss,, Order on
Motion for Preliminary Injunction,. (Filing fee $ 505,
receipt number 0972!7483470) (Willman, Daniel)
(Entered:

39a
CONSTITUTIONAL AND STATUTORY
PROVISIONS
Article III Sec.1
The judicial Power of the United States, shall be vested
in one supreme Court, and in such inferior Courts as
the Congress may from time to time ordain and
establish. The Judges, both of the supreme and inferior
Courts, shall hold their Offices during good Behaviour,
and shall, at stated Times, receive for their Services, a
Compensation, which shall not be diminished during
their Continuance in Office.
Article III Sec. 2
The judicial Power shall extend to all Cases, in Law
and Equity, arising under this Constitution, the Laws
of the United States, and Treaties made, or which shall
be made, under their Authority;—to all Cases affecting
Ambassadors, other public Ministers and Consuls;—to
all Cases of admiralty and maritime Jurisdiction;—to
Controversies to which the United States shall be a
Party;— to Controversies between two or more
States;--between a State and Citizens of another
State;--between Citizens of different States;--between
Citizens of the same State claiming Lands under
Grants of different States, and between a State, or the
Citizens thereof, and foreign States, Citizens or
Subjects.
Article VI
This Constitution, and the Laws of the United States
which shall be made in Pursuance thereof; and all
Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.

40a
CONSTITUTIONAL AND STATUTORY
PROVISIONS-Continued
5th (V) Amendment
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor
shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation.
14th (XIV) Amendment
All persons born or naturalized in the United States
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside.
No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
28 U.S.C. § 1346(b)(1) Federal Tort Claims Act
(FTCA)
(b)(1) Subject to the provisions of chapter 171 of this
title, the district courts, together with the United
States District Court for the District of the Canal Zone
and the District Court of the Virgin Islands, shall have
exclusive jurisdiction of civil actions on claims against
the United States, for money damages, accruing on and
after January 1, 1945, for injury or loss of property, or

41a
CONSTITUTIONAL AND STATUTORY
PROVISIONS-Continued
personal injury or death caused by the negligent or
wrongful act or omission of any employee of the
Government while acting within the scope of his office
or employment, under circumstances where the United
States, if a private person, would be liable to the
claimant in accordance with the law of the place where
the act or omission occurred.
28 U.S.C. § 2680
The provisions of this chapter and section 1346(b) of
this title shall not apply to:
(j) Any claim arising out of the combatant activities of
the military . . . or naval
forces, or the Coast Guard, during time of war.
(k) Any claim arising in a foreign country.
42 U.S.C. § 1983
§ 1983 Civil Action for Deprivation of Rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of

42a
CONSTITUTIONAL AND STATUTORY
PROVISIONS-Continued
Columbia shall be considered to be a statute of the
District of Columbia.
Pub. L. No. 114-328
§ 671. Recovery of Amounts Owed to the United
States by Members of the Uniformed Services
(a) Statute of Limitations.—Section 1007(c)(3) of title
37, United States Code, is amended by adding at the
end the following new subparagraphs:
``(C)(i) In accordance with clause (ii), if the
indebtedness of a member of the uniformed services to
the United States occurs, through no fault of the
member, as a result of the overpayment of pay or
allowances to the member or upon the settlement of
the member's accounts, the Secretary concerned may
not recover the indebtedness from the member,
including a retired or former member, using deductions
from the pay of the member, deductions from retired or
separation pay, or any other collection method unless
recovery of the indebtedness commences before the end
of the 10-year period beginning on the date on which
the indebtedness was incurred.
FEDERAL RULES OF CIVIL PROCEDURE
F.R.C.P. Rule 8. General Rules of Pleading
(a) Claim for Relief. A pleading that states a claim for
relief must contain:
(1) a short and plain statement of the grounds for the
court's jurisdiction, unless the court already has
jurisdiction and the claim needs no new jurisdictional
support;

43a
CONSTITUTIONAL AND STATUTORY
PROVISIONS, F.R.C.P.-Continued
(2) a short and plain statement of the claim showing
that the pleader is entitled to relief; and
(3) a demand for the relief sought, which may include
relief in the alternative or different types of relief.
F.R.C.P. Rule 9. Pleading Special Matters
(b) Fraud or Mistake; Conditions of Mind. In alleging
fraud or mistake, a party must state with particularity
the circumstances constituting fraud or mistake.
Malice, intent, knowledge, and other conditions of a
person's mind may be alleged generally.
(c) Conditions Precedent. In pleading conditions
precedent, it suffices to allege generally that all
conditions precedent have occurred or been performed.
But when denying that a condition precedent has
occurred or been performed, a party must do so with
particularity.
(d) Official Document or Act. In pleading an official
document or official act, it suffices to allege that the
document was legally issued or the act legally done.
F.R.C.P. Rule 12. Defenses and Objections: When
and How Presented; Motion for Judgment on the
Pleadings; Consolidating Motions; Waiving
Defenses; Pretrial Hearing
(b) How to Present Defenses. Every defense to a claim
for relief in any pleading must be asserted in the
responsive pleading if one is required. But a party may
assert the following defenses by motion:
(1) lack of subject-matter jurisdiction;
(6) failure to state a claim upon which relief can be
granted;

44a
AFFADAVIT
ROBERT RICHMOND
Robert Richmond
4334 Saint Paul Ave.
Lincoln, NE. 68504
October 4, 2016
To whom it may concern:
I was contemplating re-enlisting in 2006 and asked my
unit retention Non Commissioned officer (NCO) if I
was eligible for a bonus. The requirements for the
bonus change frequently depending on the military's
needs and criteria is often very vague. Therefore, I
wasn't sure. I was told that because I held a critical
job skill (Special Forces) I was eligible for a $15,000
bonus if I enlisted for a 6-year term.
As a Special Forces Soldier, a 6-year re-enlistment all
but guaranteed another deployment, but for financial
reasons I decided to take that risk for the contractual
promise of the bonus. I re-enlisted on November 23,
2006. Just months after re-enlisting our unit was
activated and sent to Iraq from 2007-2008. As green
berets, our team was sent on some of the most
dangerous missions. We conducted more than 100
raids likened to the Navy SEAL raid on the Osama bin
Laden compound, and my team alone captured well
over 1,000 suspected terrorists during that
deployment.
I detrimentally relied on that contract as I was
subjected to more than 30 enemy attacks, some of
which resulted in multiple friendly causalities. I was
personally injured in a vehicle crash during one

45a
mission, and knocked unconscious in a separate
mission when my vehicle was struck by an IED
(roadside bomb). I woke to enemy gunfire ricocheting
off my vehicle and RPG rockets bursting to either side
of the vehicle. I suffered injuries to my back, both
shoulders, and a traumatic brain injury in that conflict.
I was later diagnosed with PTSD. I struggled so bad
with my memory from the blast, that I couldn't find my
way home when I returned to the US. Although it
seems to have improved, I continue to struggle with
memory issues every day.
In November of 2012 I honorably completed my
contract.
On May 29, 2014 I received a letter from the
Department of the Defense (DOD) stating they are
recouping my bonus because it was made in violation
of Federal law and National Guard Bureau (NGB)
policy, and that my bonus would be forwarded for debt
collection action. I was stunned at first, thinking there
was some kind of mistake. My confusion soon turned
to a feeling of betrayal, and the more I thought about
it, it did not seem legal. My wife and I along with our
newborn son were already struggling financially at the
time. I immediately called the number provided on the
letter. I don't recall who I spoke to, but they suggested
I do not pay the debt, but contact JAG and/or follow the
instructions on the letter to request an exemption to
policy. That individual then sent me a copy of the
California Army National Guard (CAANG) audit which
suggested I was not eligible for the bonus based on the
amount of time I had in service when the contract was
signed.
I called the number provided on the letter for JAG.

46a
The JAG officer told me, I was right to call them first
and have them work on it rather than do the
exemption of policy. He told me to send them an email
explaining my situation along with a copy of
everything I had and they would take care of it. After
not hearing anything for nearly a year and a half, I
thought the issue was resolved.
Then, on October 25, 2015, I received a collection letter
from Defense Finance Accounting Service (DFAS),
stating I had to pay $15,000 in full by November 15,
2015 or sign an agreement letter, stating I received the
payment in error, and make installment payments of
$423.12 with interest. I did not receive the payment in
error; I was promised the payment in a legally binding
contract that I signed in good faith and fulfilled. The
letter stated my bonus was now being recouped
because my unit reported I served “00 years of my
contract” (contrary to the audit paperwork stating it
was because of the amount of time in-service I had).
The letter came from DFAS, the payroll department -they have all of the payroll and tax records that show
for a fact I completed my contract. The letter stated if
I didn't think the information was accurate I needed to
contact my unit. This didn't make sense, because in
my 30 years of service at the time, I was not aware of
any unit reporting system, other than for pay. My unit
obviously reported me present for pay, because I was
paid, and I would assume they would want more than
just my bonus.
Per their instructions, I called my unit several times
and left several messages, with no response. I know
they have been extremely preparing for upcoming
missions and did not time to focus on this situation.
On November 5, 2015, after being unable to make

47a
contact with my unit, I reached out to a contact in the
incentives task force. I connected with SSG Hernandez,
who works for the task force in charge of handling
collections. I informed her that I turned in my
paperwork to JAG, but apparently, the guy, who no
longer worked there dropped the ball, and now my only
course of action at this point was file a claim with the
Army Board of Military Corrections (ABCMR). She
added that my case should be a no brainer as far as
having my correction approved. She then wrote that
she was annoyed because someone could have initiated
the paperwork on my behalf, and that they didn't
really need me to personally request it.
On November 13, 2015, after many unanswered calls,
I emailed the unit Operations NCO. After several
more phone calls and no response, I called the unit
Sergeant Major, and left messages on his cell phone.
On November 18, 2015, having not heard back from my
unit, I mailed out the required paperwork to ABCMR
via certified mail. ABCMR stated on their website that
they are backed up for over a year and that I should
not expect a reply before then.
On November 23, 2015, I emailed the Sergeant Major,
and informed him I was unable to get in contact with
anyone from the unit. I then called the unit again.
On November 30, 2015, I emailed the company
operations NCO again.
On December 3, 2015, after getting nowhere contacting
my unit as instructed, I wrote a letter to DFAS,
explaining nobody had returned my calls or emails,
and provided them with evidence that I completed my

48a
entire commitment. With this letter, I included my
DD214s, my Retirement points statement, and the pay
records they already had. I did not receive a response.
I was finally contacted by the unit operations NCO in
early December. They were as confused as I was about
this bogus reporting system, regarding having
completed my contract or not. They merely report me
present for pay, which I was. In fact, I not only
completed my required one weekend a month and two
weekends a year, I actually served approximately four
years on active duty for the CAANG. Again, DFAS is
the payroll department, therefore they have records.
It seemed very apparent they had no intention of
resolving the issue.
It wasn't until later that I learned this was happening
to nearly 17,000 soldiers. After getting nowhere with
the CAARNG and DFAS I stayed awake at night,
spending countless hours writing several letters to
local congressmen and senators begging them to take
action and defend our right to the legal due process
protected by the 5th Amendment, and consider the
statute of limitations. DFAS wrote back stating they
are only the collection agency, so my debt must be
addressed with the National Guard. I spent countless
more hours writing congressmen and senators asking
them to hold the National Guard to the law. I took an
oath to defend the Constitution against all enemies
foreign and domestic, as did the leaders who initiated
this collection.
As the economy took a turn for the worse, I was laid off
by my current job at the railroad. I found a temporary
job, and used my savings to buy an investment
property I could flip while I was waiting on the

49a
railroad to call me back. I had near perfect credit, 800
score last time I checked. So I paid cash for a building,
then planned to borrow a small sum to work on it.
Everything was in order and I had a loan application
submitted. They pulled my credit to find DFAS had
reported I had an unpaid debt of $15,000. It crippled
my credit score!
I was a man who worked hard to provide for my wife
and babies, and they crippled my ability to provide for
my family. What did I do? I signed a contract that I
literally risked my life to fulfill. The National Guard
did have a form I could have filled out. All I had to do
was say the payment they made to me was erroneous,
and provide them with all of my banking information.
I couldn't trust them to do the contract right, I couldn't
trust them with their aggressive, illegal collection
actions, I certainly was not going to trust them with
my bank account information. They didn't seem to
care about the law. They were above it, and it broke
my family down. My wife would weep night after
night. I couldn't sleep. This was so wrong. We weren't
sure we could take care of our son and newborn
daughter because my medical benefits had just ended
with the railroad. We even contemplated getting
divorced solely so she could qualify for medical
coverage for my babies, without having to sell our
house. My mental health deteriorated rapidly, I lost
sleep writing letter after letter. I wasn't even thinking
rationally, I felt so betrayed. My wife cried night after
night. She said she knew of people who took complete
advantage of the system and the government just gave
them money, and she could not believe what the Army
was doing to me after 30 years of loyal service to my
country. All I could tell myself was there are people
who are worse off than me, and I would get through

50a
this.
On April 5, 2016, as if things couldn't get worse, I
received a collection letter from the Treasury
Department stating they added an additional 33%
penalty to the debt, and it would continue to increase
if I did not pay it immediately. I did everything they
asked me to do. Why did they keep pushing me and
pushing me, pouring salt into the wound? I have never
felt so betrayed in my life, and if I felt this way, how
did every other soldier feel? I have since requested a
hearing with the Treasury Department.
On April 14, 2016, I was notified by my old company
commander that Colonel Piazzoni, the very person who
sent the original bonus recoupment letter, requested
an exemption to policy on my behalf.
On April 24, 2016, my old company commander
explained to me, that the packet I sent to ABCMR
nearly six months prior, will not be processed until the
NGB sends me a denial letter. He stated they were
going to submit an exception to policy packet into a
system called GIMS, and we have to wait for GIMS to
automatically deny my packet, since they lost the copy
of my bonus addendum. Once GIMS automatically
denies my packet, I will be able to re-apply to ABCMR,
then wait another year for a response.
On June 19, 2016, I followed up with my old company
commander to find out if my packet had been processed
through GIMS.
On June 22, 2016, I learned my packet had still not
been processed.

51a
On September 26, 2016, after receiving my denial
letter from the NGB. I resubmitted my packet with
ABCMR and will now have to wait approximately one
more year for a response.
In the meantime, I found a new job out-of-state and
have to move to the third state in two years, chasing
work to support my family. But my credit score went
from almost 800 points to just over 600 points; too low
to get a home loan, let alone a VA loan, which is
something I am entitled to as part of my service, and
yet cannot use.
This is the typical Army mentality. Rather than doing
their due diligence and investigating each case, to
determine if there was any fraudulent intent on the
part of the soldiers, in typical Army fashion, the
leadership punished the masses and called them all
guilty until proven innocent. They have the most
incredible and efficient procedure for collections, and
reporting unpaid debt to credit bureaus and the
Treasury department, but have intentionally created
an over-burdensome process designed to feed on the
stress of soldiers who have PTSD, and get them to
comply because they don't have the mental stamina to
continue to stand up to them.
Even my therapist, assigned to me by the VA, has
begged me to comply and pay them, because she sees
how this has consumed and affected my life. She
stated the stress from this has deteriorated my mental
health and told me if I didn't just drop it, I was
literally going to die. She said this has shaved years
off my life.
I'm so tired of tossing and turning at night, every time

52a
I receive a collection letter; only to wake up in the
middle of the night, to write a congressmen or senator.
I'm tired of watching my wife cry each and every time.
I know that only a few have the stamina to stand up to
the Government and fight for what is right. I know
there are 17,000 soldiers going through the same thing,
and they must feel there is nothing they can do. They
must feel helpless and feel they have no place to turn.
Which is exactly how I felt. I have complied with every
instruction, and yet they have caused me so much
mental anguish and financial loss. I have tried to use
the remedy they have provided and as long as I
continue to do so, they will only continue to ruin my
livelihood for one more year.
I have gone from a proud veteran, who served for over
30 years, in nearly a dozen countries, and multiple
combat zones, to an utterly disappointed man. The
lack of honor and loyalty shown by military leaders
who made mistakes, failed to do their jobs, and have
refused to take responsibility is beyond appalling.
They have placed the burden onto the shoulders of
soldiers who have already risked and gave all to serve
their country. I beg of you, please, give soldiers who
have lost all hope, the legal due process they deserve.
Sincerely,
Robert J. Richmond
Sergeant First Class
US Army Special Forces

